IN THE SUPREME COURT OF THE UNITED STATES

MONEX DEPOSIT COMPANY, ET AL.
Petitioner
vs.

No:

19-0933

CFTC
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
February 10, 2020
cc:
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
NEIL A. GOTEINER
FARELLA BRAUN & MARTEL LLP
235 MONTGOMERY STREET
17TH FLOOR
SAN FRANCISCO, CA 94104

